No:
IN THE
SUPREME COURT OF THE UNITED STATES

WARREN JACKSON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Warren Jackson, through undersigned counsel and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the 30th day of September, 2021, which is
the time the petition for writ of certiorari is due.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 30, 2021

By:

s/Tracy Dreispul
Tracy Dreispul
Assistant Federal Public Defender
Deputy Chief, Appellate Division
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

